Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




HOW HMOs MANAGE HOME HEALTH
          SERVICES




                  JUNE GIBBS BROWN
                  Inspector General

                       JUNE1997
                     OEI-O4-9SOOO80
                    OFFICE OF INSPECI-OR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95
452 is to protect the integrity of the Department of Health and Human Services
programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, settlements, and fraud alerts. The Inspector General informs
the Secretary of program and management problems, and recommends legislative,
regulatory, and operational approaches to correct them.


                      Office of Evaluationand Inspections


The OIG’s Office of Evaluation and Inspections (OEI) conducts short-term 

management and program evaluations (called inspections) that focus on issues of 

concern to the Department, the Congress, and the public. The inspection reports 

provide findings and recommendations on the efficiency, vulnerability, and 

effectiveness of departmental programs. 


OEI’s Atlanta Regional Office prepared this report under the direction of Jesse J. 

Plowers, Regional Inspector General, and Christopher Koehler, Deputy Regional 

Inspector General. Principal OEI staff included: 


Atlanta Region                                   Headouarters 


Joe Townsel, Project Leader                      Jennifer Antico, Program Specialist 

Betty Apt, Team Leader                           Barbara Tedesco, Statistician 

Jackie Watkins, Program Analyst 

Tammy Hipple, Statistician 


To obtain a copy of this report, call the Atlanta Regional Office at (404) 331-4108.
              EXECUTIVE                         SUMMARY

PURPOSE

To describe home health service management      by Medicare health maintenance
organizations as compared to fee-for-service.

BACKGROUND

Home health care is nursing, therapeutic, medical social, and aide service provided in
a person’s home. It allows people with limited mobility to live independently while
still receiving professional health care services. Generally, a Medicare beneficiary
must be homebound to be eligible for home health care. Also, their care must be
prescribed by a physician.

Over the past 5 years, Medicare expenditures for home health services have increased
over fourfold to $15.1 billion and expenditures have varied significantly among the
nation’s home health agencies.

The rapidly escalating costs and wide variation among providers raised concern about
differences in how home health care is managed by various providers. Prior Office of
Inspector General (OIG) reports have shown that costs can be controlled. Cost for
home health by about two-thirds of fee-for-service providers is well below the national
average.

In view of the reputation of Medicare risk health maintenance organizations (HMOs)
for controlling costs, we examined how those HMOs manage home health services.
<Where possible, we compared HMO management of home health care to practices
used by fee-for-service providers, including selected home health agencies which also
contract with HMOs. We surveyed 132 risk HMOs which served at least 450
Medicare beneficiaries each. Our response rate was 77 percent. We also surveyed 93
HMO home health contractors. Our response rate was 46 percent.

FINDINGS

MOST HMOs CLOSELY MANAGE HOME HEALTH SERVICES

HMOs Gene&y      Contmct for Home Halth Services

Eighty-nine percent of HMOs contract for all of the home health services they provide
beneficiaries. Most HMOs pay home health contractors on a fee-for-service basis.
HMOs and their contractors expressed opinions that contracting for home health care
benefits HMOs, contractors,
                       r.   and Medicare beneficiaries.




                                           i
lhey Vie Cbe Managers to Help Cinabol the Number and Qudity of Home Heal& Vi

Virtually all of the HMOs use case managers to approve, coordinate, and monitor
home health visits. The primary control methods used are pre-authorizing services,
conducting case management conferences, reviewing patient progress reports, and
evaluating services provided.

HMOs Z&t& Co-1          tits   and the Number of Vi&

Data from 49 of the HMOs we surveyed showed that they authorized only 19 percent
as many home health visits per beneficiary in 1994 as were authorized under the fee-
for-service system. The average was 11 visits for HMOs and 58 visits for fee-for-
service. In many instances, HMOs specify the number and type of visits each
beneficiary will receive. Other factors such as cost per visit, health status, duration of
care, and enforcement of homebound status influence costs. However, by controlling
the number of visits, the overall cost of home health care in HMOs is less.

Ahxt   Half the HAU& We Surveyed provided Home Heawl Care for About One-Fourth
the Cost Under the Fee-For-Service System

Of 102 HMOs, 49 reported that home health cost $882 per beneficiary in 1994. This
was about 25 percent of the average cost per beneficiary under the fee-for-service
system. The home health contractors we surveyed corroborated the cost per
beneficiary. They stated that, on average, home health care costs for HMO
beneficiaries is about 23 percent of that for fee-for-service beneficiaries.

HOME HEALTH CONTRACTOR OPINIONS ARE MIXED ON ADEQUACY                                  OF
THE NUMBER OF VISlTS AUTHORIZED BY HMOs

About 56 percent of the home health contractors we surveyed expressed views that the
number of visits authorized by $IMOs was adequate. However, 51 percent of the
contractors said HMO beneficiaries are disadvantaged in terms of overall home health
care, when compared to fee-for-service beneficiaries.

AGENCY COMMENTS

The HCFA had no comments on this report.




                   -.     -.




                                             ii
                          TABLE                           OF               CONTENTS

                                                                                                                   PAGE

EXECUTIVESUMMARY 


INTRODUCTION..                     ...............................................                                        1


FINDINGS          ......................................................                                               5


MANAGEMENT                  OF HOME HEALTH SERVICES                                      .......................       5


   Contractors           ...................................................                                              5


   Case Managers                 ................................................                                         7


   Visits ........................................................                                                        9


   costs      .......................................................                                                 14 


ADEQUACY             OF CARE ...........................................                                              15 


APPENDIX

   Analysis of Respondents                      vs. Non-Respondents                  .......................         A-l
                         INTRODUCTION

PURPOSE

To describe home health services management      by Medicare health maintenance
organizations as compared to fee-for-service.

BACKGROUND

Home health care is nursing, therapeutic, medical social, and aide service provided in
a person’s home. It allows people with limited mobility to live independently while
still receiving professional health care services. Generally, a Medicare beneficiary
must be homebound to be eligible for home health care. All home health services
must be specified in a plan of care certified by a physician.

The Social Security Act authorized Medicare Part A payments for home health care.
Beneficiaries who do not have Part A entitlement may be covered under Part B.
Home health services may be provided through fee-for-service providers and through
Medicare managed care -- such as health maintenance organizations. The Health
Care Financing Administration (HCFA), Department of Health and Human Services
has Federal oversight of the Medicare program, including home health services.

This inspection examines the provision of home health services by HMOs. Risk
HMOs receive a fixed payment per beneficiary. Therefore, they have an incentive to
judiciously manage home health services and control cost. Where possible, we
compare HMO practices for managing home health care to those used by fee-for-
service providers, including selected home health agencies that contract with I-IMOs to
provide care to Medicare beneficiaries.

Health Maintenance   Organizations

The HCFA contracts with health maintenance organizations (HMOs) to provide
health care for Medicare beneficiaries. Medicare HMOs must offer all home health
services that are available under fee-for-service systems. In some instances, HMOs
may elect to provide services that are not covered under fee-for-service systems. For
example, HMOs may elect to give home health care to a patient who is not
homebound -- particularly if it appears home health care might prevent more
expensive inpatient care.

The HCFA contracts with two types of HMOs. They are “risk” HMOs and “cost”
HMOs. A risk HMO receives a fixed monthly Medicare payment per beneficiary.
Such HMOs are at risk for any health care cost that exceeds the fixed payment.
Medicare pays cost H@s based on the costs they incur for health care services they
provide. The majority of Medicare HMOs are risk HMOs.



                                            1

Growth of Home Health Care

Medicare expenditures for’home health care increased dramatically in recent years.
To illustrate, between 1990 and 1995 Medicare expenditures for home health care
grew from $3.7 billion to $15.1 billion -- an increase of over fourfold in just 5 years.
By the year 2002, HCFA projects that Medicare home health care costs will be about
$33 billion.

Variation In Cost For Home Health Care

Medicare expenditures for home health care per beneficiary have varied significantly 

among providers in recent years. To illustrate, we reported in 1995 that home health 

care provided by about two-thirds of the nation’s home health agencies cost Medicare 

about $2065 per beneficiary. However, home health care provided by the remaining 

one-third of the home health agencies cost Medicare about $4431. We further 

reported that most of the variation can be attributed to the number of visits a provider 

chooses to make per beneficiary. On average, the high cost providers make five times 

more visits per beneficiary than do the low cost providers’. 


Coocern About Escalating Cost of Home Health Care

The rapidly escalating cost and wide variation in cost among providers raised serious
concern about differences in how home health care is managed by different providers.

Our prior reports on home health care have shown that controlling cost of home
health care is possible. For example, over two-thirds of the home health agencies
have demonstrated that home health care needs of Medicare beneficiaries can be met
at or below the national average cost per beneficiary.

Concern About Quality of Home Health Under HMOs

Various health care researchers have raised concerns about the quality of home health
care, including that provided by HMOs. According to a study funded by HCFA,
HMO members receive fewer home health visits than beneficiaries under fee-for-
service2. The researchers found that most HMO beneficiaries in that study had
outcomes inferior to fee-for-service beneficiaries at the time home health services
were terminated. However, the researchers did not substantiate that HMO
beneficiaries needed more services than they were getting.




   ‘Variation Among Home Health Agencies In Medicare PaymentsforHome Health Services:
OEI-04-%-(30260
                           -.._
   ‘Center for Heal6 Policy Research,A Study ofHome Health Care Qualityand Costs Under
Capitated and Fee-For-Service Payment Systems, February1994


                                               2
Efforts to   assess quality include an ongoing initiative by HCFA to develop and test an
instrument     called the Standardized Outcome and Assessment Information Set
(OASIS).      In the future, HCFA expects the instrument to be a means by which the
quality of   home health services can be monitored.



Selection of HMOs and Home Health Contractors

At the time of our inspection, HCFA contracted with 152 risk HMOs nationwide.
Within that population, we identified 132 HMOs that served at least 450 Medicare
beneficiaries. We included 100 percent of the 132 HMOs in our survey. We excluded
the remaining 20 HMOs because their enrollment was less than 450. HMOs with low
enrollment levels would likely have few beneficiaries who receive home health care.
Therefore, such HMOs would have limited experience in managing home health
services. Collectively, the 20 HMOs we did not select had an average enrollment of
171 Medicare beneficiaries.

Likewise, we surveyed 93 home health agencies (HI-&) that contract with our
selected HMOs to provide home health care. Our selected HHAs represent 100
percent of the HHAs that our selected HMOs identified as their main contractor.

Data Collection and Analyses

We conducted our inspection between July 1995 and July 1996. We used standardized
questionnaires to collect data from both selected HMOs and their contractors on costs
and management of home health care by HMOs. We mailed our questionnaires to
120 of the 132 selected HMOs, and personally visited the remaining 12. Similarly, we
mailed our questionnaires to 87 of the selected 93 HHA contractors, and personally
visited the remaining 6. During each site visit, we interviewed appropriate staff on
program management, controls, and results. We also reviewed contracts and other
records on home health care operations.

We collected quantitative data on such practices as the numbers of Medicare
beneficiaries served, visits made, and cost. We also collected qualitative data showing
policies, procedures, and practices used to authorize, manage, and control use of home
health care. We based our analyses on 1994 data. We used unaudited data provided
by the selected HMOs and HHAs that responded to our survey.

Of the 132 selected HMOs, 102 responded to our survey -- a response rate of 77
percent. An analysis of HMO respondents and non-respondents showed that the
possibility of bias based on HMO size is limited. Our non-response analysis is in
Appendix A
                     .   .L...




                                              3

Of the 93 selected home health contractors, 43 responded to our survey, for a
response rate of 46 percent. We did not conduct an analysis of contractor
respondents and non-respondents for lack of available provider numbers for many
contractors in both groups. However, the responding contractors are located in 19
States, serve Medicare beneficiaries under HMOs as well as fee-for-service, and
represent proprietary and non-proprietary ownership about equally.

Where appropriate, we conducted t-tests on our findings to determine    if differences
noted were significant.

Operation   Restore Trust

This inspection was part of the President’s Operation Restore Trust initiative. The
purpose of Operation Restore Trust (ORT) is to identify and prevent fraud, waste,
and abuse in the Medicare and Medicaid programs. ORT is a joint initiative involving
the Health Care Financing Administration, Administration On Aging, Office of
Inspector General, and various State agencies. In 1995, ORT began targeting home
health agencies, nursing homes, hospices, and durable medical equipment suppliers in
five States for evaluations, audits, and investigations. The five States are Florida, New
York, Texas, Illinois, and California. These States account for about 40 percent of the
nation’s Medicare and Medicaid beneficiaries and program expenditures.



We conducted this inspection in accordance with the Quaky Stundardri for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                            4

                                FINDINGS

HMOs CLOSELY MANAGE HOME HIXALTH SERVICES

Most HMOs Contract For Home Health services

About 89 percent (91 of 102) of the Medicare HMOs that responded to our survey
contract for all home health services they provide to beneficiaries. On average, the
remaining 11 percent contract for about 25 percent of home health services and
provide about 75 percent directly.

The HMOs we surveyed each use an average of 12 home health agencies (HHAs) as
contractors. The number of contractors used by individual HMOs ranged from 1 to 90
home health agencies.

Cbnbucting for home health s&es     appears to bent@ HiUOs, wnb-acto~     and Medicare
beneficiaries

According to the 102 HMOs and 43 HHAs that responded to our survey, contracting
for home health care is advantageous to HMOs, HHAs, and Medicare beneficiaries.

HMO benefits The HMOs responding to our survey said that by contracting with
HHAs, they expand the geographic coverage and availability of home health care and
clinical expertise. To illustrate, in some communities, an HMO may have difficulty
staffing a particular type of home health service, such as infusion therapy. Further,
the need for home care in some communities is occasional, and it may not be practical
for an HMO to provide those services directly. In such communities, an HMO may
contract with HHAs to expand the scope of its services.

Also, the HMOs said that contracting for home health care is cost effective. They said
that, because HHAs are interested in getting and keeping HMO business, HHAs
generally offer quality home health care at competitive prices.

Home health agency benefits: The 43 HHAs that responded to our survey said that
their contracts with HMOs for home health care offer two major advantages for them.

First, the HMO contracts offer HHAs a reliable source of revenue. They said
payment for services are guaranteed and timely. Further, they said HMOs are gaining
prominence in the health industry, offering opportunities for business growth to’HHAs
that serve HMOs successfully.

Second, the HMO.,contracts offer HHAs an opportunity to provide continuity of care
for many patients; The HHAs said that in many instances they establish an ongoing



                                            5

professional relationship with HMO physicians and case managers, thereby facilitating
continued care and generally better health results.

Medicare beneficiary benefits: By contracting with HHAs, HMOs improve access to
home health care expertise for many beneficiaries. For example, HMOs gain access
to expertise in the home care field that they do not have in-house. Collectively, HHAs
offer a wide range of specialized services and trained clinicians which can effectively
focus on problems such as insulin-dependent diabetes and surgical wounds. According
to the HMOs that responded to our survey, it is not always practical to keep such
expertise in-house.

Accreditatio      is the-ry   cdmion   forselecting
                                                  homehealthconmcmm
Of 63 HMOs that cited a primary criterion for selecting contractors, 60 percent (38)
said accreditation is the most important (see Table 1). They tended to rely largely on
accreditation by the Joint Commission on Accreditation of Health Organizations.
About 88 percent (90 of 102) of the HMOs that responded to our survey said they use
all of the five criteria in Table 1 for selecting contractors to provide home health care.

                                       TABLE 1

  CRITERIA         HMOs USE FOR SELECTTNG HOME HEALTH                CONTRACTORS


                                        HMOs USING CRUERIA              PRIMARY
           CRITERIA 


  Reputation                              91               89                  10
  Competitive      pricing                95               93                   2
  Geographic      coverage                99               97                   6
  Adequate staffing                       90               88                   3
  Accreditation                           91               89                  38
  Other                                   33               32                   4
  * This shows the number of HMOs that considered each criterion as most
  important to their selection of a contractor. Only 63 of the 102 HMOs that
  responded to our survey identified a primary criterion.


The “other” category of criteria in Table 1 includes quality of care, which was cited by
about 11 percent of the HMOs (11 of 102). That category also includes miscellaneous
criteria, such as having a philosophy compatible with HMOs, effective customer
service, and a low Medicare fee-for-service denial rate.
Mast Heati   Maintenance organizations pay contractors on a fee-for-senice bask

About 73 percent of the 102 HMOs that responded to our survey said they
compensate contractors on a fee-for-service basis. Only 9 percent of HMOs pay their
contractors on a capitated basis. The remaining 18 percent used several methods of
payment. Most of the 18 percent used a combination of the capitation and fee-for-
service methods. Some of those HMOs also paid on a per episode, per diem, per
visit, or per hour basis.

HMOs Use Case Managers To Help Control The Number And Quality Of Home
Health Visits

Most HMO staffs expressed views that the number and quality of home health visits 

are appropriate for the needs of their patients. They described procedures and quality 

assurance activities designed to assure adequacy of their home health care 
 --
regardless of whether the care was provided directly by an HMO or under contract 

with a home health agency. For example, they described specific case management 

activities, management reviews, evaluations, and quality assurance techniques used to 

help assure that the number and quality of visits for each beneficiary are appropriate. 


Cizse manager raponribti      for reviewing and approving patient care

HMOs describe the primary purpose of their home health visits as meeting patient
medical needs after inpatient care, improving patient ability to function independently
after inpatient care, and keeping patients from needing inpatient care. Toward that
end, virtually all of the HMOs we surveyed use case managers to approve, coordinate,
and monitor home health visits. Those HMOs reported that case managers are
responsible for

  --   Working with physicians to plan care and write orders, 

  --   Reviewing and approving initial and continuing visits, 

  --   Reviewing medical necessity and assuring that treatment plans are effective, 

  --   Making recommendations to medical groups and physicians on patient options, 

  --   Tracking and reporting outcomes and cost savings on a monthly basis, and 

  --   Participating in quality assurance activities such as clinical record reviews, team 

       meetings, and case conferences. 




Generally, HMOs stated that their case managers are not authorized to unilaterally
approve or deny home health services requested by physicians. However, the scope of
their responsrbilities clearly indicates that case managers significantly influence the
extent and type of home health visits Medicare beneficiaries receive. About 88
percent of the HMOs said their case managers control both home health cases and
cases involving other services. The remaining 12 percent said their case managers
control only home health cases.


                                             7
Case managers control the type and extent of home health care in various ways. The 

primary methods cited by respondents to our survey are summarized below. 


Assigning control numbers: One way that case managers control home health services 

is by assigning a pre-authorization number. Without such a number, and the 

accompanying pre-approval, HMO home health contractors are not paid for visits they 

report having made to beneficiaries. 


Case management conferences: About 88 percent of HMOs use case management 

conferences to help assure the quality and adequacy of home health visits. Typically, 

case managers use the telephone to confer with physicians and contractor staff on the 

extent and type of home health care needed by Medicare beneficiaries. The 

conferences are held weekly or as-needed. Generally, HMOs said the conferences are 

intended to result in beneficiaries getting the appropriate number of visits, based on 

their medical needs. 


Reviewing patient progress: About 82 percent of HMO case managers review 

contractor progress reports for beneficiaries to assess quality and appropriateness of 

home health visits provided. Through such reviews, case managers determine 

beneficiary ability to perform activities of daily living, and the degree to which home 

health visits are improving medical conditions. 


Also, about 75 percent of HMO case managers discuss patient progress with 

physicians, and about 30 percent audit patient records. Such reviews enable case 

managers to assess progress in individual cases and patterns of care, such as the 

number of visits needed for various diagnoses and hospital readmissions after home 

visits. 


Evaluating care provided: Many HMOs said case managers are responsible for 

evaluating the need for, and provision of, home health‘ services to assure appropriate 

use. Similarly, 24 of 102 HMOs and 17 of 43 contractors that responded to our survey 

said they have performed outcome evaluations. However, in many cases, comments by 

those HMOs and contractors revealed that they referred to satisfaction rates as 

outcomes. 


Only four home health contractors, and no HMOs, said they had performed 

evaluations showing quantitative results. One contractor that had performed a 

quantitative evaluation reported positive results. They conducted a study to determine 

if newly diagnosed insulin-dependent diabetes patients could be taught to 

independently prepare and administer insulin by the 15th home health visit. The study 

showed that 17 of a sample of 20 such patients were successful by the 15th home 

health visit. 


Also, 38 percent of the HMOs used beneficiary satisfaction surveys to assess adequacy 

of the number of home-health visits. 




                                             8

Resolving disagreements:     HMOs and their home health contractors said they
occasionally disagree on home care issues, such as when to terminate visits for a
beneficiary, and whether a beneficiary needs skilled care or custodial care. HMOs
typically terminate home health visits earlier than a fee-for-service provider would, and
deny, or limit, custodial visits. When an HMO and contractor disagree on the number
and type of home health visits a beneficiary should receive, the case manager typically
consults with HMO physicians and contractor staff to resolve the disagreement. Then,
if necessary, the HMO medical director and the beneficiary’s physician make the
decision on home health visits needed. Beyond that, five contractors said they can
appeal even that decision. Four of them cited a decisionmaker within the HMO and
one cited a third-party--the State health agency.

HMOs Control Costs By Controlling The Number Of Visits Per Beneficiary

HMOs authorize fewer vii& per btm@iaty     than do fee-for-senice pa

HMOs control costs by controlling the number of home health visits each beneficiary
receives. HMOs authorize far fewer visits per beneficiary than do fee-for-service
providers. Forty-nine of the 102 HMOs that responded to our survey provided data
on the volume and cost of home health visits. Data from those 49 HMOs (48 percent)
showed that, on average, they authorized 81 percent fewer visits per beneficiary in
1994 than did fee-for-service (FFS) providers (see Figure 1).

                                       FIGURE    1
                  AVERAGE NUMBER OF VISITS PER BENEFICIARY




                              FF8                    HMO




The number of visits per beneficiary was generally corroborated by 30 percent (13 of
34) of the HMO contractors who responded to our survey. The data provided by
those 13 contractors showed that Medicare beneficiaries received about 74 percent


                                            9
fewer visits when home health care was provided through an HMO. On average, the
13 contractors said that HMO patients received about 11 visits compared to about 42
for fee-for-service patients. The remaining 30 contractors did not respond to this
survey question.

Comparison of home health visits by HMOs and fee-for-service: One home health
agency, which is both an HMO contractor and a fee-for-service provider, gave a case
example to illustrate the difference in visits authorized by HMOs and those typically
provided under fee-for-service. The home health contractor cited a beneficiary with a
history of heart disease and in need of post-operative home care for a fractured lower
extremity. Based on experience, the contractor estimated that such a beneficiary could
receive as many as 169 more visits under fee-for-service than under an HMO.
Likewise, such a beneficiary would likely receive 80 more aide visits under fee-for-
service than under an HMO. Based on the example, Table 2 shows the differences
between visits under fee-for-service and those under HMOs for a beneficiary with the
same health conditions.

                                      TABLE 2

A CONTIMCTOR’S COMPARISON OF VISITS TYPICALLY AUTHORIZED BY
           HMOs VS. VISITS UNDER FEE-FOR-SERVICE




 * Total reduction in visits under HMOs could be as much as 169 visits.




                                          10 

HMO philosophy of controlling visits: The majority of contractors (24 of 43) said
HMOs have a philosophy on home health care that results in keeping the number of
visits low. First, they said that HMOs approve fewer visits and have tighter controls
on costs than do physicians who authorize fee-for-service visits. Second, they said
HMOs place more emphasis on teaching beneficiaries to independently manage their
own care needs.

To illustrate how teaching reduces the number of visits, one contractor provided the
following example. A beneficiary has chronic obstructive pulmonary disease, but poor
knowledge of the medications and proper management of the disease. Under the fee-
for-service system, that person would likely receive 2 to 4 months of visits. During
those visits, the contractor would provide care for all the beneficiary’s known health
problems and gradually teach the patient self-care. Under an HMO, however, the
patient would likely receive visits for only 1 to 2 months. During that time, the patient
would be quickly taught self-care and expected to become independent.

HMOs ojkm spec@ the number and type of vids each bentfkhy         will receive

Determining number of home health visits Most of the 102 HMOs (about 68
percent) that responded to our survey said HMOs determine the number and type of
home health visits a beneficiary will receive. The HMOs said the decision is typically
made by physicians and case managers, or by those parties collaboratively. Table 3
shows who determines the number and type of visits made for HMO beneficiaries.

                                        TABLE 3

               WHO DETERMINES THENUMBERANDTYPEOF
                  VISm HMO BENEJ?ICIARIES RECEIVE
             Number and type of visits             Number         Percent
             determined by:
             HMO unilaterally                I       69      I      68
             HMO iointlv with contractors
             Home health contractors
             Hospital discharge planners     I        1      I       1
             TOTAL,                          I       102     I      100


Most of the 43 home health contractors who responded to our survey verified HMO
statements that the HMO typically makes decisions on how many and what type of
home health visits a beneficiary receives. About 54 percent of the contractors (23 of
43) said the HMO.,unilaterally makes the decision on the number and type of visits.
Eight (18 percent) said the decision is made jointly by the HMO and the contractor.



                                            11 

The remaining 12 contractors (28 percent) said that contractors   decide the number
and type of visits each beneficiary receives.

Criteria used in determinin g number of visits About 75 percent of the HMOs who
responded to our survey questions (77 of 102) provided information on their criteria
for determining the number and type of home health visits needed by a beneficiary.
Table 4 shows that almost half of the HMOs said they base their decisions on
beneficiary needs and response to treatment.

About 72 percent (31 of 43) of the home health contractors we surveyed responded to
our question on criteria used by HMOs in determining the number and type of visits.
Table 4 also shows that many of the contractors disagreed with HMOs on the extent
that certain criteria were used. The contractors recognized that more than one
criterion was typically used. However, the contractors said beneficiary needs and
response to treatment were used much less than the HMOs said it was used to
determine the number and type of visits (21 percent for contractors vs. 48 percent for
HMOs). Likewise, the contractors said more of the decisions on the number and type
of visits were arbitrary.

                                        TABLE 4

       CRITERM FOR D-G                      NUMBER AND TYPE OF VISITS




           and responses to treatments
                   oals set in their plan




            * The percentages total more than 100 percent because some
            HMOs and contractors gave multiple responses on this issue.




                                            12 

Beyond the numberof vi&     severalfactor potential&in-e       the cost of home heakh
care

We recognize that factors other than the number of visits might influence the cost of
home health care per beneficiary. The following examples illustrate how some factors
could influence costs. The list of examples are not intended to be all inclusive. Other
factors that our survey respondents did not identify could also affect cost of home
health service.

Cost per visit: The average cost per visit for home health care provided through
HMOs was about $20 more than the cost of such care provided under the fee-for-
service system. The average cost per visit was $79 for all types of home health care
provided by HMOs. The average cost per visit under the fee-for-service system was
$59.

Further, the cost of skilled home health care provided by HMOs is higher than that
under fee-for-service. The average cost per visit for skilled nursing visits provided
through an HMO was $88. The average cost for such visits under fee-for-service was
$70.

Depending on the number of visits per beneficiary, HMOs’ higher cost per visit
potentially increases their cost per beneficiary for home health care. Yet, as shown
earlier, the overall cost of home health care in HMOs is lower. This tends to highlight
the cost impact of HMOs’ practice of keeping the number of visits low.

Health status comparability: Some studies have concluded that HMO costs are lower
than fee-for-service costs because HMO beneficiaries are generally healthier. Other
studies showed the health status of HMO members to be comparable to that of fee-
for-service patients. Therefore, the issue remains open for debate. The HCFA is
currently studying the comparability issue.

Duration of care: Some observers argue that HMOs may terminate          home health care
early because they can continue to give therapy and other outpatient care as long as is
needed. In this way, HMOs may be able to keep the number of home health visits
low without adversely affecting patient care. Conversely, home health agencies might
provide care to fee-for-service beneficiaries for longer periods of time because therapy
typically is terminated upon discharge. The overall effect of the two practices on
patient health and cost of home health care is not clear.

Extent of skilled and unskihed care:      HMOs give considerably fewer home health aide
visits, but more skilled nursing visits proportionately than are provided under fee-for-
service. HMOs provide beneficiaries an average of 3 aide visits, compared to 28
under the fee-for-service system. The 3 aide visits represent 22 percent of all HMO
visits, while the 28 fee-for-service visits represent 47 percent.
                    ‘.    L...




                                           13 

HMOs provide an average of six skilled home health visits per beneficiary. This
represents about 54 percent of all visits to HMO beneficiaries. Conversely,
beneficiaries under fee-for-service receive an average of about 25 skilled home health
visits per beneficiary. This represents about 43 percent of all their visits.

Homebound requirement:       About 50 percent of the HMOs said they base home
health visits on individual medical needs rather than on a beneficiary’s homebound
status. They said they provide home services when it is cost effective and beneficial to
do so. For example, some HMOs provide home health care to prevent or slow the
progression of diseases which might otherwise result in hospitalization.  Occasionally,
HMOs approve visits as a practical response to a beneficiary’s lack of transportation,
need for care on a weekend, or inability to leave home because of severe weather.

Slightly less than 50 percent of the home health contractors that responded to our
survey supported HMOs’ statements on eligibility determinations.    They said HMOs
do not always impose the homebound requirement. To the extent this practice is
followed, it could affect the cost per beneficiary in HMOs.

Many HMOs We Surveyed Provided Home Health Care For About One-Fourth                             What
It Would Cost Under the Fee-For-Service System

Forty-nine of the 102 HMOs (48 percent) that responded to our survey provided cost 

data in response to our questions. The 49 HMOs reported that their home health 

care costs were $882 per beneficiary, on average, in 1994. This is about 25 percent of 

the average cost of $3,464 per beneficiary Medicare paid to 7,966 home health 

agencies for home care under the fee-for-service system in 19943. 


The 49 HMOs that provided cost data to us represent about 48 percent of the 102 

HMOs that responded to our survey. This is also about 37 percent of the 132 HMOs 

we surveyed. Our analyses showed that respondent and non-respondent HMOs 

served a comparable number of enrolled Medicare beneficiaries. This indicates 

limited possrbility that our cost data are biased by any significant difference between 

the size of HMOs that provided cost data and those that did not. See Appendix A for 

our non-response analysis. 


Further, the cost per beneficiary for home health care provided through HMOs was 

corroborated by 13 of the 43 home health contractors (30 percent). The cost data 

provided by the 13 contractors showed that home health care they provided for HMO 

beneficiaries cost, on average, about 23 percent of the cost to Medicare for home 

health care provided under the fee-for-service system. That is, those contractors 

reported that they received almost four times more per beneficiary for 

Medicare fee-for-service patients than for HMO patients. 




    3The fee-for-service costs are based on claims data from HCFA. The data reflect services billed for
3.65 million beneficiaries.


                                                  14
HOME HEALTH CONTRACI’OR               OPINIONS WIZRE MIXFD ON THE
ADEDUACY  OF CARE

Fii-Six   Percent Said HMOs Authorize     an Adequate   Number of Visits

Fifty-six percent of the HMO contractors (24) expressed views that the number of
home health visits authorized by HMOs was adequate. Conversely, 42 percent (18)
expressed concern about the number of visits authorized by HMOs. One contractor
did not express an opinion.

The 24 contractors not concerned about the adequacy of       visits under HMOs gave
various reasons. Those included: (1) that the contractor     was under a capitated
arrangement (and thus the HMO had less influence over        the number of visits), (2) the
contractor’s ability to negotiate HMO approval for visits,   on a case-by-case basis, and
(3) having a long history and a good working relationship     with HMOs.

The concerns about the adequacy of HMO-approved visits, as voiced by 18
contractors, were diverse. However, their concerns included that HMOs have a cap
on visits--specifically for each type of visit, that HMO physicians under capitation limit
visits to protect their interests, and that HMOs only authorize minimal care.

Fifty-One Percent Said HMO Beneficiaries      Are Disadvantaged,    Compared   to Fee-For-
service

About 51 percent of the home health contractors (22) said HMO beneficiaries are
disadvantaged in terms of overall home health care, when compared to fee-for-service
beneficiaries. Some contractors noted that sometimes beneficiaries are discharged
from home health too early--i.e., before they achieve independent living status. Some
contractors said HMO case managers do not always take a beneficiary’s individual
needs into account when approving the number and type of visits. Other contractors
expressed concern over HMO practices of rarely approving home health aide visits.
Finally, some contractors were concerned that HMOs are so concerned with keeping
visits (e.g.,cost) down that patient care could be interrupted, causing patient progress
to regress. The contractors noted that home health visits could be interrupted until a
contractor could justify additional visits.

Thirty Percent Said HMO Beneficiaries     Are Advantaged,    Compared    to Fee-For-
service

About 30 percent of the home health contractors (13) said beneficiaries receiving
home health care through an HMO have an advantage over those served through the
fee-for-service system. For example, they said (1) overall care under HMOs is more
consistent and thorough, (2) beneficiaries benefit from HMO case management
services, and (3) HMOs often do not require a beneficiary to be homebound to
receive home health cafe.



                                             15 

Another contractor, not included in the 13 above, did not like HMO policies for
controlling or limiting visits. This contractor admitted, however, that HMO
beneficiaries are advantaged because HMOs do not always require a beneficiary to be
homebound to receive home health care.

Nineteen Percent Said HMO Beneficiaries    Are Neither Advantaged   nor
Disadvantaged

The remaining 19 percent (8 of 43) of the home health contractors said Medicare
beneficiaries receive essentially the same home health care through HMOs and fee-
for-service providers. While some of those contractors cited particular advantages and
disadvantages, they all concluded that, on balance, the care was about the same.



AGENCY     COMME~

The HCFA had no comments on this report.




                                           16 

                            APPENDIX                   A

            ANALYSIS OF RESPONDENTS             VS. NON-RESPONDENTS

A consideration in surveys of this type is whether the results may be biased by
significant differences between respondents and non-respondents.       To determine
whether significant differences exist in this survey, we compared average enrollment
for those HMOs that responded and those HMOs that did not respond to our survey.
Our analysis revealed no significant difference. Therefore, related to HMO size, the
possibility of bias in the results of this study due to non-response is limited.

To test further for bias in respondents versus non-respondents, we used the T-test for
Large Sample Inferences about the differences between two sample means. In this
case the two samples are HMOs that provided cost data and those HMOs that did
not. The means we tested were the average enrollment for respondents versus
average enrollment for non-respondents.      We can conclude through the use of this test
that there is not a significant difference in the HMO respondents and non-respondents
by size of agency.

The results of the T-test are a Z-score of 0.3110 and a Z-alpha by 2 value of 1.645.
With this result, we can be 95 percent confident that we can reject the null hypothesis
and conclude that there is not a significant difference, by agency size, between HMOs
that provided cost data and HMOs that did not provide cost data.

We are reporting results of our analysis of risk HMOs nationwide.




                                          A-l
